No. 21In the

Supreme Court of the United States
ELIJAH ANTHONY OLIVAREZ,
Petitioner,
versus
T-MOBILE USA, INCORPORATED;
BROADSPIRE SERVICES, INCORPORATED,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

Jillian T. Weiss
Counsel of Record
Law Office of Jillian T. Weiss, P.C.
775 Fourth Avenue
Brooklyn, New York 11232
(845) 709-3237
jweiss@jtweisslaw.com
Attorney for Petitioner

308058

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
The District Court for the Southern District of Texas
dismissed Petitioner’s complaint alleging violation of
Title VII because he did not plead facts alleging other
employees held the same job or responsibilities, worked for
the same supervisor, had comparable violation histories,
and engaged in nearly identical conduct resulting in
dissimilar employment decisions. The Court concluded
Petitioner “therefore fails to sufficiently allege a prima
facie case of discrimination under Title VII.
The question presented is:
At the pleading stage of a Title VII discrimination
claim (42 U.S.C. § 2000e et seq.), in which there is no
direct evidence of discrimination, must the plaintiff
show “circumstances that support an inference of
discrimination,” as required by Swierkiewicz v. Sorema
N.A., 534 U.S. 506, 510 (2002), by pleading specific facts
showing they were treated less favorably than other
employees outside the protected category holding the
same job or responsibilities, who worked for the same
supervisor, had comparable violation histories, and
engaged in nearly identical conduct resulting in dissimilar
employment decisions, in order to state a valid claim that
the protected category was a motivating factor for an
adverse employment action under 42 U.S.C. § 2000e-2(m)
and Fed. R. Civ. P. 8(a)?

ii
PARTIES TO THE PROCEEDINGS
Petitioner is Elijah Olivarez.
Respondents are T-Mobile USA, Incorporated and
Broadspire Services, Incorporated.

iii
RELATED PROCEEDINGS
Olivarez v. T-Mobile USA, Incorporated, et al., No.
4:19-cv-04452 U.S. District Court for the Southern
District of Texas. Judgment entered June 10, 2020.
Olivarez v. T-Mobile USA, Incorporated, et al., No.
20-20463, U.S. Court of Appeals for the Fifth Circuit.
Judgment entered May 14, 2021.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS . . . . . . . . . . . . . . ii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
CONSTITUTIONA L A ND STATUTORY \
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
I.

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

II. The lower courts dismissed the case because
of failure to plead a comparator. . . . . . . . . . . . . . . 4
REASONS FOR GRANTING THE PETITION  . . . . 7

v
Table of Contents
Page
A. The Fifth Circuit’s decision deepens
a circuit split over the requirement of
a comparator in pleading Title VII
employment discrimination. . . . . . . . . . . . . . 7
1.

Many Circuits have recognized
that requiring a comparator at the
pleading stage of a Title VII case is an
inappropriate “heightened pleading
requirement” that Swierkiewicz
eliminated.  . . . . . . . . . . . . . . . . . . . . . . . 14

2. C i r c u it s a l s o h ave c a s e l aw
r e qu i r i ng a comp a r at or, or
stating that none is required and
then dismissing for failure to
provide comparator information,
creating confusion among courts
and counsel. . . . . . . . . . . . . . . . . . . . . . . 16
B. This case raises exceptionally important
questions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

vi
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, FILED MAY 14, 2021 . . . . . . . . 1a
A PPEN DI X B — OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
TEX AS, HOUSTON DIVISION, FILED
JUNE 19, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14a

vii
TABLE OF CITED AUTHORITIES
Page
Cases
Alkhawaldeh v. Dow Chem. Co.,
851 F.3d 422 (5th Cir. 2017) . . . . . . . . . . . . . . . . . . 6, 12
Amron v. Morgan Stanley Inv. Advisors, Inc.,
464 F.3d 338 (2d Cir.2006) . . . . . . . . . . . . . . . . . . . . . 14
Ashcroft v. Iqbal,
556 U.S. 662 (2009) . . . . . . . . . . . . . . . . . . . . . . . 8, 9, 11
Bell Atlantic v. Twombly,
550 U.S. 544 (2007) . . . . . . . . . . . . . . . . . . . .  7, 8, 11, 12
Burns v. Johnson,
829 F.3d 1, 12 (1st Cir. 2016)  . . . . . . . . . . . . . . . . . . . . 9
Carlson v. CSX Transp., Inc.,
758 F.3d 819 (7th Cir. 2014)  . . . . . . . . . . . . . . . . . . . . 15
Castleberry v. STI Grp.,
863 F.3d 259 (3d Cir. 2017) . . . . . . . . . . . . . . . . . . . . . 14
Chhim v. Univ of Tex. at Austin,
836 F.3d 467 (5th Cir. 2016) . . . . . . . . . . . . . . . . . . . . . 6
Desert Palace, Inc. v. Costa,
539 U.S. 90 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Frappied v. Affinity Gaming Black Hawk, LLC,
966 F.3d 1038 (10th Cir. 2020) . . . . . . . . . . . . . . . . . . 16

viii
Cited Authorities
Page
Freeman v. Metro. Water Reclamation Dist. of
Greater Chicago,
927 F.3d 961 (7th Cir. 2019) . . . . . . . . . . . . . . . . . . . . 15
Leatherman v. Tarrant County Narcotics
Intelligence and Coordination Unit,
507 U.S. 163, 113 S.Ct. 1160,
122 L.Ed.2d 517 (1993) . . . . . . . . . . . . . . . . . . . . . . . . 12
Masaebi v. Arby’s Corp.,
852 F. App’x 903 (6th Cir. 2021) . . . . . . . . . . . . . . . . . 15
McCauley v. City of Chicago,
671 F.3d 611 (7th Cir.2011) . . . . . . . . . . . . . . . . . . . . . . 9
McCleary-Evans v. Maryland Dep’t of Transp.,
State Highway Admin.,
780 F.3d 582 (4th Cir. 2015) . . . . . . . . . . . .  8, 10, 11, 12
McDonnell Douglas Corp. v. Green,
411 U.S. 792, 93 S.Ct. 1817, 36 L.Ed.2d 668
(1973) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Olivarez v. T-Mobile USA, Inc.,
No. 20-20463, 2021 WL 1904592 (5th Cir.
May 12, 2021) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Olivarez v. T-Mobile USA, Incorporated, et al.,
2020 WL 5269754 (S.D. Tex 2020)  . . . . . . . . . . . . . . . 9

ix
Cited Authorities
Page
Olivarez v. T-Mobile USA, Incorporated, et al.,
997 F.3d 595 (5th Cir. 2021) . . . . . . . . . . . . . . . . . . . . . 3
Patane v. Clark,
508 F.3d 106 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 14
Peterson v. Hewlett-Packard Co.,
358 F.3d 599 (9th Cir. 2004) . . . . . . . . . . . . . . . . . . . .  17
Powers v. Sec’y, U.S. Homeland Sec.,
846 F. App’x 754 (11th Cir. 2021) . . . . . . . . . . . . . . . . 16
Quigg v. Thomas County School District,
14 F.3d 1227 (11th Cir. 2016)  . . . . . . . . . . . . . . . . . . . . 9
Reeves v. Sanderson Plumbing Products, Inc.,
530 U.S. 133 (2000) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Robertson v. Sea Pines Real Estate Cos.,
679 F.3d 278 (4th Cir.2012) . . . . . . . . . . . . . . . . . . . . . . 8
Sheets v. City of Winslow,
No. 20-16278, 2021 WL 2555714 (9th Cir.
June 22, 2021)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Starr v. Baca,
652 F.3d 1202 (9th Cir.2011) . . . . . . . . . . . . . . . . . . . . . 9
Swaso v. Onslow Cty. Bd. of Educ.,
698 F. App’x 745 (4th Cir. 2017) . . . . . . . . . . . . . . . . . 16

x
Cited Authorities
Page
Swierkiewicz v. Sorema N.A.,
534 U.S. 506, 122 S.Ct. 992, 152 L.Ed.2d 1
(2002)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
Uppal v. Hosp. Corp. of Am.,
482 F. App’x 394 (11th Cir. 2012) . . . . . . . . . . . . . . . .  17
Warmington v.
Bd. of Regents of Univ. of Minnesota,
998 F.3d 789 (8th Cir. 2021) . . . . . . . . . . . . . . . . . . . .  17
Warren v. Fed. Nat’l Mortg. Ass’n,
733 F.App’x 753 (5th Cir. 2018) . . . . . . . . . . . . . . . . . . 6
White v. Baxter Health Corp.,
533 F.3d 381 (6th Cir. 2008) . . . . . . . . . . . . . . . . . . . . . 9
Statutes and Other Authorities
42 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
42 U.S.C. § 2000e-2(m) . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 9
42 U.S.C.A. § 2000e-2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Civil Rights Act, Title II, § 1981 . . . . . . . . . . . . . . . . . . . . 2
Civil Rights Act, Title VII . . . . . . . . . . . . . . . . . . . . passim
Fed. R. Civ. P. 8 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

xi
Cited Authorities
Page
Fed. R. Civ. P. 8(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Arthur R. Miller, From Conley to Twombly to
Iqbal: A Double Play on the Federal Rules of
Civil Procedure, 60 Duke L.J. 1, 31 (2010) . . . . . 9, 10

1
PETITION FOR WRIT OF CERTIORARI
Elijah Olivarez is a transgender man formerly
employed by the Respondents. Mr. Olivarez brought
several claims based on his termination from employment
by Respondents. One of these asserted that his termination
from employment was motivated by bias based on his
gender identity. Mr. Olivarez alleged that he had suffered
harassment from a biased individual in the workplace,
but that HR had not taken action to stop the harassment.
He alleged that when he requested leave for a medical
procedure related to his gender identity, a biased
individual processed his leave requests, which were for
reasons of bias untimely and incorrectly processed. He
alleged that he was terminated, ostensibly because he
requested additional medical leave, but in reality because
of bias based on his gender identity from the person
responsible for the decision. He did not did not allege facts
regarding the treatment of similarly situated individuals
in the workplace outside of his protected category.
The District Court dismissed Petitioner’s complaint,
reasoning as follows:
Olivarez does not plead facts alleging other
employees held the same job or responsibilities,
worked for the same supervisor, had comparable
violation histories, or engaged in nearly
identical conduct resulting in dissimilar
employment decisions. Olivarez does not allege
he was treated less favorably than a similarlysituated employee outside his protected group.
Olivarez therefore fails to sufficiently allege a
prima facie case of discrimination under Title
VII. Accordingly, the motions to dismiss are

2
granted as to the claim for discrimination under
Title VII.
The McDonnell Douglas burden-shifting factors have
long been a source of confusion for courts and litigants.
This schema was originally created to ease the evidentiary
burden of job discrimination plaintiffs. It avoided the need
to provide direct evidence showing, without inference,
that discrimination was the but-for cause of an adverse
action. Instead, it has been used to impose the impossible
requirement of finding a virtually identical comparator
where none may exist, especially in small employment
settings, even though there is otherwise evidence of biasmotivated employment decisions. Courts are faced with
a myriad of decisions pointing every which way, within
their own Circuit and without. Court opinions freely mix
the burdens on a motion to dismiss with that of summary
judgment and of trial. Thus, they require that a complaint
must state in excruciating factual detail the inner
workings of the employer despite the mere requirement
of a short and plain statement under Rule 8. This puts the
cart before the horse, in that these cases demand that the
plaintiff, at the pleading stage, discover information about
their co-workers that they would ordinarily receive at the
discovery stage. These decisions are then routinely cited
in cases far afield from Title VII, such as cases involving
Title II, § 1981, FHA and the ACA.
This Court’s precedents are clear that there is no such
burden at the pleading stage. Yet courts in many Circuits
routinely cite those precedents, and immediately proceed
to look for proof of a comparator. The Court’s guidance
is needed to provide the Circuits and the District Courts
with a clear understanding of the plaintiff’s pleading
burden for a valid complaint of employment discrimination.

3
OPINIONS BELOW
Olivarez v. T-Mobile USA, Incorporated, et al.,
2020 WL 5269754 (S. D. Tex 2020) [Appendix B]
Olivarez v. T-Mobile USA, Incorporated, et al.,
997 F.3d 595 (5th Cir. 2021) [Appendix A]
JURISDICTION
The court of appeals entered judgment on May 14,
2021. By Order of the Court on July 19, 2021, in any case
in which the relevant lower court judgment, order denying
discretionary review, or order denying a timely petition for
rehearing was issued prior to July 19, 2021, the deadline
to file a petition for a writ of certiorari remains extended
to 150 days from the date of that judgment or order. This
Court has jurisdiction under 28 U.S.C.1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
42 USC 2000E-2(M) provides:
(m) Impermissible consideration of race, color,
religion, sex, or national origin in employment practices
Except as otherwise provided in this subchapter, an
unlawful employment practice is established when the
complaining party demonstrates that race, color, religion,
sex, or national origin was a motivating factor for any
employment practice, even though other factors also
motivated the practice. 42 U.S.C.A. § 2000e-2

4
FEDERAL RULE 8(a) provides:
(a) Claim for Relief. A pleading that states a claim for
relief must contain:
(1) a short and plain statement of the grounds for
the court’s jurisdiction, unless the court already has
jurisdiction and the claim needs no new jurisdictional
support;
(2) a short and plain statement of the claim showing
that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include
relief in the alternative or different types of relief. Fed.
R. Civ. P. 8
STATEMENT OF THE CASE
I.

Background

U.S. courts statistics show that about one thousand
civil rights cases are dismissed every year. See https://
www.uscourts.gov/data-table-numbers/c-4 This dismissal
rate is affecting a particularly vulnerable community, that
of victims of bias and discrimination
II. The lower courts dismissed the case because of
failure to plead a comparator.
Petitioner Elijah Olivarez brought several claims based
on his termination from employment by Respondents. One
of these asserted that his termination from employment
was motivated by bias based on his gender identity. Mr.

5
Olivarez alleged in his complaint that he had suffered
harassment from a specifically-named biased individual
in the workplace, but that HR had not taken action to
stop the harassment. He alleged that when he requested
leave for a medical procedure related to his gender
identity, another specifically-named individual raised
questions about his gender identity and the entitlement
to leave that suggested bias, and thereafter processed
his leave requests for reasons of bias in an untimely and
incorrectly manner. He alleged that he was terminated,
ostensibly because he requested additional medical leave,
but in reality because of bias based on his gender identity
from the specifically-named person responsible for the
decision. He did not allege facts regarding the treatment
of similarly situated individuals in the workplace outside
of his protected category.
The District Court dismissed the Second Amended
Complaint because plaintiff did not plead a comparator.
Olivarez does not plead facts alleging other
employees held the same job or responsibilities,
worked for the same supervisor, had comparable
violation histories, or engaged in nearly
identical conduct resulting in dissimilar
employment decisions. Olivarez does not allege
he was treated less favorably than a similarlysituated employee outside his protected group.
Olivarez therefore fails to sufficiently allege a
prima facie case of discrimination
Appendix B at 20a. The Court specifically stated that it
was not deciding any of the other grounds asserted by
Defendants. Id. at 20b, n. 12.

6
The District Court explicitly relied on Fifth Circuit
precedent holding that a comparator is required at the
pleading stage of a Title VII action, citing Alkhawaldeh v.
Dow Chem. Co., 851 F.3d 422, 426 (5th Cir. 2017), Warren
v. Fed. Nat’l Mortg. Ass’n, 733 F.App’x 753, 761 (5th Cir.
2018) (per curiam) and Chhim v. Univ of Tex. at Austin,
836 F.3d 467, 470 (5th Cir. 2016).
The Fifth Circuit acknowledged that Swierkiewicz
v. Sorema, 534 U.S. 506, 510 (2002) holds that a
comparator is not required. See Appendix A at 6a.
However, even though not required, it held that the
McDonnell Douglas factors are “instructive” and
therefore the complaint could be dismissed for failure
to plead a comparator.
[ W ]hen a plaintiff ’s Title VII disparate
treatment discrimination claim depends on
circumstantial evidence, as Olivarez’s does,
the plaintiff “will ‘ultimately have to show’
that he can satisfy the McDonnell Douglas
framework.” Cicalese, 924 F.3d at 767 (quoting
Chhim, 836 F.3d at 470). “In such cases, we
have said that it can be ‘helpful to reference’
that framework when the court is determining
whether a plaintiff has plausibly alleged the
ultimate elements of the disparate treatment
claim.” Id. (quoting Chhim, 836 F.3d at 470)….
However, Olivarez has failed to plead any facts
indicating less favorable treatment than others
“similarly situated” outside of the asserted
protected class. See id. In fact, the Second
Amended Complaint does not contain any facts
about any comparators at all.

7
Appendix A at 6a-7a.
REASONS FOR GRANTING THE PETITION
A.

The Fifth Circuit’s decision deepens a circuit
split over the requirement of a comparator in
pleading Title VII employment discrimination.

This Court recognized in Bell Atlantic v. Twombly,
550 U.S. 544 (2007) that there is a perceived tension
between its ruling in Swierkiewicz v. Sorema, 534 U.S.
506 (2002), and the requirements enunciated in Twombly.
The Court harmonized the perceived tensions as follows.
Swierkiewicz did not change the law of
pleading, but simply re-emphasized ... that the
Second Circuit’s use of a heightened pleading
standard for Title VII cases was contrary
to the Federal Rules’ structure of liberal
pleading requirements.” 313 F.Supp.2d, at 181
(citation and footnote omitted). Even though
Swierkiewicz’s pleadings “detailed the events
leading to his termination, provided relevant
dates, and included the ages and nationalities
of at least some of the relevant persons involved
with his termination,” the Court of Appeals
dismissed his complaint for failing to allege
certain additional facts that Swierkiewicz
would need at the trial stage to support his
claim in the absence of direct evidence of
discrimination. Swierkiewicz, 534 U.S., at 514,
122 S.Ct. 992. We reversed on the ground that
the Court of Appeals had impermissibly applied
what amounted to a heightened pleading

8
requirement by insisting that Swierkiewicz
allege “specific facts” beyond those necessary
to state his claim and the grounds showing
entitlement to relief. Id., at 508, 122 S.Ct. 992.
Twombly, 550 U.S. at 569–70. Under this formulation,
so long as the plaintiff provides events leading to
termination, relevant dates, information regarding the
protected category of any relevant persons involved with
termination, the complaint is sufficient under Fed. R.
Civ. P. 8. Requiring additional information applies “what
amount[s] to a heightened pleading requirement.” Id.
Some courts have understood Twombly and Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) to require heightened
pleading, as in this statement from the Fourth Circuit:
Moreover, in finding the complaint sufficient,
the Supreme Court in Swierkiewicz applied a
different pleading standard than that which it
now requires under Iqbal and Twombly. See
Robertson v. Sea Pines Real Estate Cos., 679
F.3d 278, 288 (4th Cir.2012) (noting that Iqbal
and Twombly “require more specificity from
complaints in federal civil cases than was
heretofore the case”).
McCleary-Evans v. Maryland Dep’t of Transp., State
Highway Admin., 780 F.3d 582, 586 (4th Cir. 2015)
The requirement of a comparator is particularly
problematic where, as here, a plaintiff alleges that the
employer was motivated by bias, despite the presence of
legitimate, non-discriminatory reason. Under 42 U.S.C.

9
§2000e-2(m), the presence of such a legitimate reason
does not invalidate the plaintiff’s case. See Desert Palace,
Inc. v. Costa, 539 U.S. 90, 100 (2003) (citing Reeves v.
Sanderson Plumbing Products, Inc., 530 U.S. 133 (2000)
as recognizing that evidence that a defendant’s explanation
for an employment practice is “unworthy of credence” is
“one form of circumstantial evidence that is probative
of intentional discrimination.”). See also, e.g., Burns
v. Johnson, 829 F.3d 1, 12 (1st Cir. 2016) (mixed-motive
plaintiff not required to use McDonnell Douglas); Quigg
v. Thomas County School District, 14 F.3d 1227 (11th
Cir. 2016) (McDonnell Douglas comparator requirement
cannot apply in mixed motive case); White v. Baxter Health
Corp., 533 F.3d 381 (6th Cir. 2008) (same).
The response of Judge James Wynn, in dissent,
well illustrates the problem in detail, and in the clearest
possible manner:
The apparent tension between the Court’s
decisions in Iqbal and Swierkiewicz is welldocumented. [fn1]
[fn1] See, e.g., McCauley v. City of Chicago,
671 F.3d 611, 623 (7th Cir.2011) (Hamilton,
dissenting) (“Iqbal ... created tension with
Swierkiewicz by endorsing its holding while
simultaneously appearing to require the same
sort of fact-specific pleading of discriminatory
intent that the Swierkiewicz Court rejected.”);
Starr v. Baca, 652 F.3d 1202, 1215 (9th Cir.2011)
(“The juxtaposition of Swierkiewicz ... on
the one hand, and ... Iqbal, on the other, is
perplexing”); Arthur R. Miller, From Conley to

10
Twombly to Iqbal: A Double Play on the Federal
Rules of Civil Procedure, 60 Duke L.J. 1, 31
(2010) (noting that the tension between Iqbal
and Swierkiewicz has “caus[ed] confusion and
disarray among judges and lawyers”).
McCleary-Evans, 780 F.3d at 590 (4th Cir. 2015) (Wynn,
J., dissenting). Judge Wynn then reviews the complaint
in detail, explaining how the plaintiff’s allegations go
beyond what Swierkiewicz found sufficient to satisfy
Rule 8(a)(2). She applied for two positions with the
Maryland Department of Transportation’s State Highway
Administration. She laid out in immense detail her
qualifications. She identified the employees responsible
for denying her applications. She alleged that she and
other African Americans were denied employment in
favor of non-African American applicants. She provided
information regarding her interview experience and what
a discriminatory history of hires. He found it plausible.
McCleary-Evans, 780 F.3d at 591 (Wynn, J., dissenting).
He notes that courts are concerned with litigation costs,
and provides a countervailing consideration that must be
considered.
Yet if we are to consider litigation costs in
the application of federal pleading standards,
we must take care not to ignore the costs
borne by plaintiffs and society as a whole
when meritorious discrimination lawsuits are
prematurely dismissed. See Miller, supra
at 61. We ought not forget that asymmetric
discovery burdens are often the byproduct of
asymmetric information. The district court’s
decision below exemplifies the risks posed by

11
an overly broad reading of Twombly and Iqbal.
The district court faulted McCleary–Evans
for failing to allege how much control the
Highway Administration employees named in
the complaint “wield[ed]” over other members
of the hiring committee and failing to identify
the qualifications of the selected candidates.
J.A. 27–28. It is simply unrealistic to expect
McCleary–Evans to allege such facts without
the benefit of at least some limited discovery.
When we impose unrealistic expectations on
plaintiffs at the pleading stage of a lawsuit,
we fail to apply our “judicial experience and
common sense” to the highly “context-specific
task” of deciding whether to permit a lawsuit
to proceed to discovery. Iqbal, 556 U.S. at 679,
129 S.Ct. 1937. At the early stages of Title VII
litigation, borderline conclusory allegations
may be all that is available to even the most
diligent of plaintiffs. The requisite proof of the
defendant’s discriminatory intent is often in the
exclusive control of the defendant, behind doors
slammed shut by an unlawful termination.
McCleary-Evans, 780 F.3d at 591–92 (Wynn, J. dissenting).
As Judge Wynn notes, without the benefit of at least some
limited discovery, the requisite proof of discriminatory
intent is often in exclusive control of the defendant.
Where that is the case, complaints must not be dismissed
for failure to cite comparators of which plaintiffs can
only have, at best, haphazard knowledge. The danger
here is the danger of lip service and the undermining of
confidence in the law and in this Court. Courts that say
one thing, and do another, are not courts following the
rule of law. As Judge Wynn states:

12
Under the majority’s view, what remains of
Swierkiewicz after Twombly is the bare holding
that courts should not use the magic words of
McDonnell Douglas to assess the sufficiency of
Title VII claims at the 12(b)(6) stage. Thus, the
majority would render Swierkiewicz a hollow
shell and mute its primary thrust—namely,
that discriminatory intent need not be pled
with specific facts. But the Supreme Court
in Swierkiewicz specifically forbade using
judicial interpretation to limit the scope of its
holding. Indeed, in Swierkiewicz, in response
to the argument that the Court’s holding would
“burden the courts” by “allowing lawsuits based
on conclusory allegations of discrimination to
go forward,” Swierkiewicz, 534 U.S. at 514,
122 S.Ct. 992, Justice Thomas, writing for a
unanimous Court, stated that “[a] requirement
of greater specificity for particular claims is a
result that ‘must be obtained by the process of
amending the Federal Rules, and not by judicial
interpretation.’ ” Id. (emphasis added) (quoting
Leatherman v. Tarrant County Narcotics
Intelligence and Coordination Unit, 507 U.S.
163, 168–169, 113 S.Ct. 1160, 122 L.Ed.2d 517
(1993)). As far as I am aware, no amendment
to the Federal Rules has taken effect since
the Court’s ruling in Swierkiewicz that would
require the level of specificity that the majority
by its own “judicial interpretation” demands
from McCleary–Evans.
McCleary-Evans, 780 F.3d at 591–92 (Wynn, J. dissenting).

13
The District Court in the present case required
additional information amounting to a heightened pleading
requirement. The District Court may be forgiven for doing
so. Its reasoning was unsurprising, given the tangled web
of case law holding and implying in dicta that information
on a specific comparator similarly situated in regard to
job, title, supervisor, disciplinary history and other similar
factors.
It was not only the District Court that had some
trouble with the doctrine. The Fifth Circuit initially issued
an opinion, withdrawn two days later, in which it held
that a comparator is required. In its earlier, subsequently
withdrawn opinion, it stated:
The Title VII discrimination claim presented
here “relies entirely on circumstantial evidence,
and is therefore subject to the burden-shifting
framework outlined in McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 93 S.Ct. 1817,
36 L.Ed.2d 668 (1973).” Alkhawaldeh v. Dow
Chem. Co., 851 F.3d 422, 426 (5th Cir. 2017).
Under McDonnell Douglas, a plaintiff must
establish a prima facie case of discrimination.
411 U.S. at 802, 93 S.Ct. 1817. Specifically, a
plaintiff must allege facts sufficient to support
a finding “that he was treated less favorably
than others outside of his protected class.”
Alkhawaldeh, 851 F.3d at 427.
Olivarez has failed to plead any facts indicating
less favorable treatment than others “similarly
situated” outside of the asserted protected
class. See id. In fact, the Second Amended

14
Complaint does not contain any facts about any
comparators at all.
Olivarez v. T-Mobile USA, Inc., No. 20-20463, 2021 WL
1904592, at *2 (5th Cir. May 12, 2021), opinion withdrawn
and superseded, No. 20-20463, 2021 WL 1945680 (5th
Cir. May 14, 2021). If even the Fifth Circuit needs two
tries to get it right, then the doctrine is in serious need
of shoring up.
1.

Many Circuits have recognized that
requiring a comparator at the pleading
stage of a Title VII case is an inappropriate
“heightened pleading requirement” that
Swierkiewicz eliminated.

It should be noted that all Title VII Circuit cases
contain statements that they adhere to Swierciewicz.
Only the Circuits cited in this section, however, actually
follow the requirements of Swierciewicz. Many of the
cases cited in subsection 2, below, which go on to dismiss
complaints for failure to cite comparators, also pay homage
to Swierciewicz, and then proceed largely to ignore it.
Second Circuit: Patane v. Clark, 508 F.3d 106, 112 n.3
(2d Cir. 2007) (noting that the District Court’s recitation
of the McDonnell Douglas factors was inappropriate.)
Amron v. Morgan Stanley Inv. Advisors, Inc., 464
F.3d 338, 343 (2d Cir.2006) (Recognizing that McDonnell
Douglas standard inappropriate in 12(b)(6) context of
Title VII cases)
Third Circuit: Castleberry v. STI Grp., 863 F.3d 259,
266 (3d Cir. 2017) (“But most importantly, what Defendants

15
and the District Court ignore is that in every case they
cite the claim was resolved at summary judgment. Under
the McDonnell-Douglas framework, a claim of employment
discrimination necessarily survives a motion to dismiss
so long as the requisite prima facie elements have been
established. That is so because “it may be difficult” for a
plaintiff to prove discrimination “[b]efore discovery has
unearthed relevant facts and evidence.” Swierkiewicz v.
Sorema N.A., 534 U.S. 506, 512, 122 S.Ct. 992, 152 L.Ed.2d
1 (2002). Here, Plaintiffs have established those elements,
and thus their claims should not have been dismissed at
this early stage of the litigation.”)
Sixth Circuit: Masaebi v. Arby’s Corp., 852 F.
App’x 903, 908 (6th Cir. 2021) (“the prima facie case
under McDonnell Douglas is an evidentiary standard
applicable at summary judgment or trial, not a pleading
requirement.”)
S eventh Circuit: Freem an v. Metr o. Wat er
Reclamation Dist. of Greater Chicago, 927 F.3d 961,
965 (7th Cir. 2019) (Rather, to proceed against the
District under § 1983 or Title VII, Freeman needed only
to allege—as he did here—that the District fired him
because of his race.”… His failure to plead the evidentiary
element about comparable coworkers, therefore, is not
fatal.)
Carlson v. CSX Transp., Inc., 758 F.3d 819, 827
(7th Cir. 2014) (“The plaintiff is not required to include
allegations—such as the existence of a similarly situated
comparator—that would establish a prima facie case of
discrimination under the “indirect” method of proof.”)

16
Tenth Circuit: Frappied v. Affinity Gaming Black
Hawk, LLC, 966 F.3d 1038, 1050-51 (10th Cir. 2020) ([W]e
do not require plaintiffs to establish a prima facie case….
[A] Title VII plaintiff bringing a claim of employment
discrimination in a termination decision must show four
elements: “(1) he [or she] belongs to a protected class; (2)
he [or she] was qualified for his [or her] job; (3) despite his
[or her] qualifications, he [or she] was discharged; and (4)
the job was not eliminated after his [or her] discharge.”
Eleventh Circuit: Powers v. Sec’y, U.S. Homeland
Sec., 846 F. App’x 754, 758 (11th Cir. 2021) (“Both the
Supreme Court and this Court have held that it is error
to require an employment discrimination plaintiff to plead
the elements of a McDonnell Douglas prima facie case
at the pleading stage. See Swierkiewicz v. Sorema N.A.,
534 U.S. 506, 510–11, 122 S.Ct. 992, 152 L.Ed.2d 1 (2002);
Surtain, 789 F.3d at 1246.”)
2.

Circuits also have caselaw requiring
a comparator, or stating that none is
required and then dismissing for failure to
provide comparator information, creating
confusion among courts and counsel.

Fourth Circuit: Swaso v. Onslow Cty. Bd. of Educ.,
698 F. App’x 745, 748-9 (4th Cir. 2017), as amended (Aug.
11, 2017) (“A plaintiff is not required to identify a similarly
situated white comparator to prove her discrimination
claim…[H]owever, Swaso failed to provide any factual
enhancement regarding the alleged comparators—such
as the medical conditions or restrictions of the white
teachers who were allowed to return, or the positions or
job requirements of those employees allowed to return

17
with standing restrictions—that would permit the court
to reasonably infer their similarity.”)
Eighth Circuit: Warmington v. Bd. of Regents of
Univ. of Minnesota, 998 F.3d 789, 798 (8th Cir. 2021)
(“She does not specify the sex of all the “other coaches”
she was treated differently than, leaving this court unable
to conclude she was only treated differently than other
male coaches.”)
Ninth Circuit: Sheets v. City of Winslow, No. 2016278, 2021 WL 2555714, at *1 (9th Cir. June 22, 2021)
(“To plead a claim for race-based disparate treatment
under Title VII, a plaintiff must allege sufficient facts
to show that “(1) he is a member of a protected class; (2)
he was qualified for his position; (3) he experienced an
adverse employment action; and (4) similarly situated
individuals outside his protected class were treated
more favorably, or other circumstances surrounding the
adverse employment action give rise to an inference of
discrimination.” Peterson v. Hewlett-Packard Co., 358
F.3d 599, 603 (9th Cir. 2004).”)
Eleventh Circuit: Uppal v. Hosp. Corp. of Am., 482
F. App’x 394, 396 (11th Cir. 2012) (Although a plaintiff
need not satisfy the McDonnell Douglas1 framework at
the pleading stage in order to state a claim for disparate
treatment, the “ordinary rules for assessing the sufficiency
of a complaint [still] apply.” Swierkiewicz v. Sorema N.A.,
534 U.S. 506, 511, 122 S.Ct. 992, 997, 152 L.Ed.2d 1
(2002); see also Davis v. Coca–Cola Bottling Co. Consol.,
516 F.3d 955, 974 (11th Cir.2008) (“Although a Title VII
complaint need not allege facts sufficient to make out a
classic McDonnell Douglas prima facie case…However,

18
Dr. Uppal never once supplements these allegations of
disparate treatment with any factual detail, such as even a
brief description of how the alleged comparator employees
were outside of her protected class.)
As a result of these conflicting opinions, persons
subjected to discrimination can never be certain
whether they will be judged under the lower standard
or the heightened standard. They can never be certain
whether they will have the opportunity to proceed past
the pleadings to obtain the discovery often necessary to
find comparators. This injustice should not be permitted
to continue.
B. This case raises exceptionally important
questions.
This case presents a question of profound importance
with wide-ranging implications for the thousands of Title
VII discrimination plaintiffs, and other plaintiffs bringing
other types of discrimination complaints, and the lawyers
who are advising potential plaintiffs of the likelihood of
success in filing a discrimination action. Given the long,
unhappy history of this country with discrimination, and
the desire of the American people to rectify these wrongs
by giving discrimination victims legal recourse, it is crucial
to the integrity of the judiciary and our country to ensure
that this be addressed as soon as possible. Swierkiewicz
was decided almost twenty years ago. It is incumbent
upon us to ensure that the legacy of Swierkiewicz is not
forgotten.

19
CONCLUSION
For all these reasons, the Court should grant a writ
of certiorari.
Respectfully submitted.
Jillian T. Weiss
Counsel of Record
Law Office of
Jillian T. Weiss, P.C.
775 Fourth Avenue
Brooklyn, New York 11232
(845) 709-3237
jweiss@jtweisslaw.com
Attorney for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the fifth
circuit, filed may 14, 2021
United States Court of Appeals
for the Fifth Circuit
No. 20-20463
ELIJAH ANTHONY OLIVAREZ,
Plaintiff-Appellant,
versus
T-MOBILE USA, INCORPORATED; BROADSPIRE
SERVICES, INCORPORATED,
Defendants-Appellees.
May 14, 2021, Filed
Appeal from the United States District Court
for the Southern District of Texas
No. 4:19-CV-4452.
Before Smith, Stewart, and Ho, Circuit Judges.
James C. Ho., Circuit Judge:
We withdraw the court’s prior opinion of May 12, 2021
and substitute the following opinion.

2a
Appendix A
Title VII of the Civil Rights Act of 1964 prohibits
employers from “discriminat[ing]” against any individual
with respect to employment “because of such individual’s
. . . sex.” 42 U.S.C. § 2000e-2(a)(1). Under Bostock v.
Clayton County, 140 S. Ct. 1731, 207 L. Ed. 2d 218
(2020), discrimination on the basis of sexual orientation
or gender identity is a form of sex discrimination under
Title VII. Accordingly, a plaintiff who alleges transgender
discrimination is entitled to the same benefits—but also
subject to the same burdens—as any other plaintiff who
claims sex discrimination under Title VII.
Elijah Olivarez alleges transgender discrimination
under Title VII. But Olivarez does not allege facts
sufficient to support an inference of transgender
discrimination—that is, that T-Mobile would have behaved
differently toward an employee with a different gender
identity. So we are left with this: An employer discharged
a sales employee who happens to be transgender—but who
took six months of leave, and then sought further leave
for the indefinite future. That is not discrimination—that
is ordinary business practice. And Olivarez’s remaining
issues on appeal are likewise meritless. We accordingly
affirm.
I.
Olivarez was employed as a retail store associate for
T-Mobile from approximately December 21, 2015 to April
27, 2018.

3a
Appendix A
During the first half of 2016, a supervisor allegedly
made demeaning and inappropriate comments about
Olivarez’s transgender status. Second Amended Complaint,
¶¶ 7-8. Olivarez filed a complaint with human resources.
Id. at ¶8. In response, T-Mobile allegedly retaliated by
reducing Olivarez’s hours to part-time from September
to November 2016. Id. at ¶ 9.
In September 2017, Olivarez stopped coming to work
in order to undergo egg preservation and a hysterectomy.
Id. at ¶ 10. The next month, Olivarez requested leave to
be applied retroactively from September to December
2017. Id. Broadspire Services administers T-Mobile’s
leave programs. Id. It granted Olivarez unpaid leave from
September 23 to December 17, and paid medical leave from
December 17 to December 31. Id. at ¶¶ 11, 13. In addition,
the company granted Olivarez’s request for an extension of
leave through February 18, 2018. Id. at ¶ 14. But it denied
a further extension of leave in March 2018. Id. at ¶ 15-16.
T-Mobile fired Olivarez on April 27, 2018. The Equal
Employment Opportunity Commission issued a right-tosue letter to Olivarez on August 15, 2019.
On November 12, 2019, Olivarez filed suit against
T-Mobile and Broadspire. The first complaint asserted
(1) interference, discrimination, and retaliation under the
Family and Medical Leave Act, 29 U.S.C. § 2601 et seq.,
(2) discrimination and retaliation under Title VII of the
Civil Rights Act of 1964, 42 U.S.C. § 2000e et seq., and (3)
discrimination under the Americans with Disabilities Act
(ADA), 42 U.S.C. § 12101 et seq.

4a
Appendix A
The district court granted Olivarez’s motion to amend
the complaint on November 22, 2019, and Olivarez filed
a First Amended Complaint the same day. The amended
complaint asserted the same claims and allegations.
On February 13, 2020, the district court entered
a scheduling order pursuant to Federal Rule of Civil
Procedure 16. That order set a deadline of March 13 to
amend pleadings “with leave of court.” Both T-Mobile
and Broadspire moved to dismiss for failure to state a
claim under Federal Rule of Civil Procedure 12(b)(6).
Olivarez opposed both motions and asserted the right to
further amend the complaint under Federal Rule of Civil
Procedure 15(a).
On March 27, 2020, the district court denied T-Mobile’s
and Broadspire’s motions without prejudice and allowed
Olivarez to further amend the complaint by April 17. The
district court expressly stated that Olivarez’s pleadings
were deficient and granted leave to amend the complaint
“so that it is responsive to the issues raised by the Moving
Defendants’ motions to dismiss.”
Olivarez filed a Second Amended Complaint on
April 16, 2020. As relevant to this appeal, that complaint
presented the same facts and claims. On April 30, T-Mobile
and Broadspire moved to dismiss under Rule 12(b)(6).
Olivarez opposed these motions, but did not request leave
to further amend the complaint.
The district court granted both motions to dismiss.
The court dismissed the Title VII discrimination claim

5a
Appendix A
on the ground that the Second Amended Complaint failed
to allege that Olivarez was treated less favorably than
similarly situated employees outside Olivarez’s protected
class. The court dismissed the ADA discrimination claim
because the Second Amended Complaint did not allege
sufficient facts to show Olivarez was disabled.
Olivarez filed a motion for reconsideration of the final
judgment pursuant to Federal Rule of Civil Procedure
59(e) and a motion to further amend the complaint under
Rule 15(a). The district court denied both motions. The
district court’s order did not discuss the reasons for
denying reconsideration, but it stated that it denied the
motion to amend pursuant to Rule 16(b). Olivarez timely
appealed, but raises only the Title VII and ADA claims.
We “review the grant of a motion to dismiss under
Rule 12(b)(6) de novo, accepting all well-pleaded facts as
true and viewing those facts in the light most favorable to
the plaintiff[].” Meador v. Apple, Inc., 911 F.3d 260, 264
(5th Cir. 2018) (quotation omitted). Rule 12(b)(6) governs
dismissal for “failure to state a claim upon which relief can
be granted.” Fed. R. Civ. P. 12(b)(6). Under Rule 8(a)(2), a
pleading must contain “a short and plain statement of the
claim showing that the pleader is entitled to relief.” Fed.
R. Civ. P. 8(a)(2). Although “the pleading standard Rule 8
announces does not require ‘detailed factual allegations,’
. . . it demands more than . . . ‘labels and conclusions.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L.
Ed. 2d 868 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
And “[a] complaint survives a motion to dismiss only if it

6a
Appendix A
pleads factual content that allows the court to draw the
reasonable inference that the defendant is liable for the
misconduct alleged.” Meador, 911 F.3d at 264 (quotation
omitted).
II.
At the Rule 12(b)(6) stage, our analysis of the Title VII
claim is governed by Swierkiewicz v. Sorema N.A., 534
U.S. 506, 122 S. Ct. 992, 152 L. Ed. 2d 1 (2002)—and not
the evidentiary standard set forth in McDonnell Douglas
Corp. v. Green, 411 U.S. 792, 93 S. Ct. 1817, 36 L. Ed.
2d 668 (1973). Under Swierkiewicz, we have explained,
“there are two ultimate elements a plaintiff must plead to
support a disparate treatment claim under Title VII: (1)
an adverse employment action, (2) taken against a plaintiff
because of her protected status.” Cicalese v. Univ. of Texas
Med. Branch, 924 F.3d 762, 767 (5th Cir. 2019) (quotations
omitted) (citing Raj v. La. State Univ., 714 F.3d 322, 331
(5th Cir. 2013)).
But “[a]lthough [a plaintiff does] not have to submit
evidence to establish a prima facie case of discrimination
[under McDonnell Douglas] at this stage, he [must]
plead sufficient facts on all of the ultimate elements of a
disparate treatment claim to make his case plausible.”
Chhim v. Univ. of Texas at Austin, 836 F.3d 467, 470
(5th Cir. 2016). And when a plaintiff’s Title VII disparate
treatment discrimination claim depends on circumstantial
evidence, as Olivarez’s does, the plaintiff “will ‘ultimately
have to show’ that he can satisfy the McDonnell Douglas
framework.” Cicalese, 924 F.3d at 767 (quoting Chhim,

7a
Appendix A
836 F.3d at 470). “In such cases, we have said that it can
be ‘helpful to reference’ that framework when the court
is determining whether a plaintiff has plausibly alleged
the ultimate elements of the disparate treatment claim.”
Id. (quoting Chhim, 836 F.3d at 470).
Under McDonnell Douglas, a plaintiff must establish
a prima facie case of discrimination. 411 U.S. at 802.
Specifically, a plaintiff must allege facts sufficient to
support a finding “that he was treated less favorably than
others outside of his protected class.” Alkhawaldeh v. Dow
Chem. Co., 851 F.3d 422, 427 (5th Cir. 2017).
Accordingly, when a complaint purports to allege a
case of circumstantial evidence of discrimination, it may
be helpful to refer to McDonnell Douglas to understand
whether a plaintiff has sufficiently pleaded an adverse
employment action taken “because of” his protected status
as required under Swierkiewicz. Cicalese, 924 F.3d at 767
(quotation omitted).
Applying these principles here, there is no dispute
that Olivarez suffered an adverse employment action.
However, Olivarez has failed to plead any facts indicating
less favorable treatment than others “similarly situated”
outside of the asserted protected class. See id. In fact,
the Second Amended Complaint does not contain any
facts about any comparators at all. The complaint
simply indicates that Olivarez took six months of leave
from September 2017 to February 2018—including an
extension granted by T-Mobile and Broadspire—and that
when Olivarez requested additional leave in March 2018,

8a
Appendix A
T-Mobile denied the request and terminated Olivarez’s
employment in April 2018.
Notably, there is no allegation that any non-transgender
employee with a similar job and supervisor and who
engaged in the same conduct as Olivarez received more
favorable treatment. And comparator allegations aside,
the complaint presents no other facts sufficient to “nudge[]
[the] claims across the line from conceivable to plausible.”
Twombly, 550 U.S. at 547. In sum, the complaint does not
plead any facts that would permit a reasonable inference
that T-Mobile terminated Olivarez because of gender
identity.
Olivarez’s ADA discrimination claim fails for similar
reasons. A claim of discrimination under the ADA requires
a plaintiff to allege a disability, that he was qualified for
his position, and that he suffered an adverse employment
action because of his disability. Neely v. PSEG Tex., Ltd.
P’ship, 735 F.3d 242, 245 (5th Cir. 2013). Olivarez failed to
sufficiently allege an adverse employment action because
of disability. See id. At most, Olivarez made a conclusory
allegation that T-Mobile and Broadspire “discriminated
against [Olivarez] based on [a] disability.” But the Rule
8 pleading standard demands more than conclusory
statements. Iqbal, 556 U.S. at 678. “A complaint survives
a motion to dismiss only if it pleads factual content that
allows the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Meador,
911 F.3d at 264 (quotation omitted).

9a
Appendix A
Finally, as for retaliation under Title VII, the
claim is untimely. Title VII requires a plaintiff to file
an administrative charge no later than 300 days “after
the alleged unlawful employment practice occurred.”
42 U.S.C. § 2000e-5(e)(1). Olivarez alleges retaliation
for complaining about a supervisor’s demeaning and
inappropriate comments in 2016, but did not file an
administrative charge until 2018. As a result, the
retaliation claim is untimely—a contention Olivarez does
not dispute on appeal. See Brinkmann v. Dallas Cnty.
Deputy Sheriff Abner, 813 F.2d 744, 746 (5th Cir. 1987)
(explaining that, when an appellant fails to identify any
error in the district court’s analysis, it is the same as if
the appellant had not appealed).
III.
According to Olivarez, the district court should
have reconsidered its decision to dismiss the gender
discrimination claims under Federal Rule of Civil
Procedure 59(e). Rule 59(e) allows a party to seek to
alter or amend a judgment “when there has been an
intervening change in the controlling law.” Schiller v.
Physicians Res. Grp., Inc., 342 F.3d 563, 567-68 (5th Cir.
2003). “Reconsideration of a judgment after its entry is
an extraordinary remedy that should be used sparingly.”
Templet v. HydroChem Inc., 367 F.3d 473, 479 (5th Cir.
2004). As a result, “[w]e review the denial of a Rule 59(e)
motion only for abuse of discretion.” Simon v. United
States, 891 F.2d 1154, 1159 (5th Cir. 1990).

10a
Appendix A
Olivarez contends that, after the district court granted
the motions to dismiss, Bostock changed the law and
created a lower standard for those alleging discrimination
based on gender identity. T-Mobile and Broadspire argue
that Bostock did no such thing.
We agree with T-Mobile and Broadspire. Bostock
defined sex discrimination to encompass sexual orientation
and gender identity discrimination. But it did not alter the
meaning of discrimination itself. At the pleading stage,
a Title VII plaintiff must plead sufficient facts to make it
plausible that he was discriminated against “because of ”
his protected status. Cicalese, 924 F.3d at 767 (quotation
omitted). At the summary judgment stage, when the claim
relies on circumstantial evidence, a Title VII plaintiff must
identify a more favorably treated comparator in order to
establish discrimination. Bostock does not alter either of
those standards.
To the contrary, Bostock expressly reaffirms these
principles. It states that “[a]n employer who fires an
individual for being homosexual or transgender fires that
person for traits or actions it would not have questioned in
members of a different sex.” 140 S. Ct. at 1737. Moreover,
Bostock employs various hypothetical comparators to
support its analysis. See, e.g., id. at 1741 (“Consider . . . an
employer with two employees, both of whom are attracted
to men. The two individuals are, to the employer’s mind,
materially identical in all respects, except that one is a
man and the other a woman. If the employer fires the male
employee for no reason other than the fact he is attracted
to men, the employer discriminates against him for traits
or actions it tolerates in his female colleague.”).

11a
Appendix A
Accordingly, there is no intervening change of law that
warrants reconsideration under Rule 59(e).1
IV.
Finally, Olivarez argues that the district court abused
its discretion in denying leave to amend the complaint,
because the good cause standard under Federal Rule of
Civil Procedure 16(b) does not apply here.
“We review for abuse of discretion the district
court’s denial of leave to amend.” S&W Enters., L.L.C. v.
SouthTrust Bank of Alabama, NA, 315 F.3d 533, 535 (5th
Cir. 2003). “A district court possesses broad discretion
in its decision whether to permit amended complaints.”
Crostley v. Lamar Cnty., 717 F.3d 410, 420 (5th Cir. 2013).
We have “ma[d]e clear that Rule 16(b) governs
amendment of pleadings after a scheduling order deadline
has expired.” S&W Enters., 315 F.3d at 536. A scheduling
order “may be modified only for good cause and with the
judge’s consent.” Fed. R. Civ. P. 16(b)(4). The good cause
standard requires a showing by the movant that “the
deadlines cannot reasonably be met despite the diligence
of the party needing the extension.” S&W Enters., 315
1. Olivarez also argues that the district court erred in refusing
to reconsider the dismissal of the ADA claim. However, in the motion
for reconsideration, Olivarez only argued for reconsideration of
the Title VII discrimination claim. “This court will not consider
arguments first raised on appeal.” Estate of Duncan v. Comm’r of
Internal Revenue, 890 F.3d 192, 202 (5th Cir. 2018). Olivarez has
therefore forfeited this argument.

12a
Appendix A
F.3d at 535 (quotation omitted). It is “[o]nly upon the
movant’s demonstration of good cause to modify the
scheduling order [that] the more liberal standard of Rule
15(a) appl[ies] to the district court’s decision to grant or
deny leave.” Id. at 536.
The district court’s scheduling order set a deadline
of March 13, 2020 for amendments with leave of court.
Olivarez requested leave to amend the First Amended
Complaint on February 12, 2020. After denying the
defendants’ initial motions to dismiss, the court allowed
Olivarez to file a Second Amended Complaint on April
16, 2020. The court then granted the defendants’ second
motions to dismiss on April 30, 2020.
Olivarez filed a motion to submit a Third Amended
Complaint on July 7, 2020—well after the court’s March
13 deadline. Accordingly, the district court was correct
to apply the good cause standard of Rule 16(b). Id.
And Olivarez failed to meet that standard. There is no
explanation for the five-month delay before pleading the
facts and allegations in the Third Amended Complaint.
Nor is there any suggestion that any of those facts were
unavailable when filing the previous three complaints. Nor
did Olivarez request an opportunity to replead in response
to the second motion to dismiss. In sum, there is no good
cause here to justify further amendment to the complaint.
The district court accordingly did not abuse its discretion
in denying further leave to amend. 2
2. Separate and apart from Rule 16(b), there is also the matter
of Rule 15(a). Under Rule 15(a), a district court may deny leave to
amend when there has been “undue delay” or “repeated failure to

13a
Appendix A
***
“Title VII protects every American, regardless
of sexual orientation or transgender status. It simply
requires proof of sex discrimination.” Wittmer v. Phillips
66 Co., 915 F.3d 328, 340 (5th Cir. 2019) (Ho, J., concurring).
That was true before Bostock, and it remains true after
Bostock. Under Bostock, transgender discrimination is a
form of sex discrimination under Title VII. But a plaintiff
claiming transgender discrimination under Bostock must
plead and prove just that—discrimination. We affirm.

cure deficiencies by amendments previously allowed.” Rosenzweig v.
Azurix Corp., 332 F.3d 854, 864 (5th Cir. 2003) (quotations omitted).
The district court here noted Olivarez “previously filed two amended
complaints.” Olivarez failed to cure the defects in those complaints
despite notice from both the district court and the defendants. See
Herrmann Holdings Ltd. v. Lucent Techs. Inc., 302 F.3d 552, 567 (5th
Cir. 2002) (explaining that, where the plaintiffs had “already filed
an original complaint and two amended complaints, each alleging
[similar] claims,” they had been “given ample opportunity to plead
their statutory claims,” and therefore it was not an abuse of discretion
to deny leave to amend further). Denial was therefore proper under
Rule 15(a) as well as Rule 16(b).

14a
B the united
Appendix b —Appendix
order of
states district court for the southern
district of texas, houston division,
filed june 19, 2020
IN THE United States District Court
for the Southern District of Texas
Houston Division
Civil Action No. H-19-4452
ELIJAH ANTHONY OLIVAREZ,
Plaintiff,
v.
T-MOBILE USA INC. et al.,
Defendants.
June 9, 2020, Decided; June 9, 2020
Filed; June 10, 2020, Entered
ORDER
Pending before the Court are Defendant T-Mobile
USA Inc.’s 12(b)(6) Motion to Dismiss the Second
Amended Complaint (Document No. 30) and the Motion
of Defendant Broadspire Services Inc. to Dismiss the
Second Amended Complaint (Document No. 31). Having
considered the motions, submissions, and applicable law,
the Court determines the motions should be granted.

15a
Appendix B
I. BACKGROUND
This is an alleged employment discrimination case.
Plaintiff Elijah Olivarez (“Olivarez”) is an alleged former
employee of Defendants T-Mobile USA Inc. (“T-Mobile”)
and Broadspire Services Inc. (“Broadspire”). Specifically,
in December 2015, Olivarez alleges he commenced
working for T-Mobile and Broadspire (collectively,
“Defendants”)—-his joint employer—as a retail store
associate. While working for Defendants, Olivarez alleges
he experienced discrimination and retaliation and further
alleges Defendants interfered with his right to take
protected leave. In April 2018, Olivarez’s employment was
allegedly terminated.
Based on the foregoing, on November 12, 2019,
Olivarez filed this lawsuit against Defendants, asserting
claims for discrimination and retaliation. On November
22, 2019, Olivarez filed a first amended complaint. On
April 16, 2020, Olivarez filed a second amended complaint.1
The live claims assert: (1) interference, discrimination,
and retaliation under the Family and Medical Leave
Act, 29 U.S.C. § 2601 et seq. (the “FMLA Claims”); (2)
discrimination and retaliation under Title VII of the Civil
Rights Act of 1964, 42 U.S.C. § 2000e et seq. (the “Title
VII Claims”); and (3) discrimination under the Americans
with Disabilities Act, 42 U.S.C. § 12101 et seq. (the “ADA

1. The second amended complaint was filed, with the Court’s
leave, after the Court denied without prejudice Defendants’ prior
motions to dismiss. Order, Document No. 27.

16a
Appendix B
Claim”). 2 On April 30, 2020, Defendants each filed motions
to dismiss under Federal Rule of Civil Procedure 12(b)(6).3
II. STANDARD OF REVIEW
Federal Rule of Civil Procedure 12(b)(6) governs
dismissal for failure “to state a claim upon which relief can
be granted.” Fed. R. Civ. P. 12(b)(6). Under Rule 8(a)(2), a
pleading must contain “a short and plain statement of the
claim showing that the pleader is entitled to relief.” Fed.
R. Civ. P. 8(a)(2). Although “the pleading standard Rule 8
announces does not require ‘detailed factual allegations,’
. . . it demands more than . . . ‘labels and conclusions.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S. Ct. 1937, 173 L.
Ed. 2d 868 (2009) (quoting Bell Atl. Corp. v. Twombly, 550
U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007)).
“[A] formulaic recitation of the elements of a cause of
action will not do.” Id. (quoting Twombly, 550 U.S. at 555).
2. The Court notes Olivarez makes allegations of joint-employer
status that appear to be set forth as a standalone claim for relief. See
Second Amended Complaint, Document No. 28, ¶¶ 19-22 [hereinafter
Live Complaint]. Olivarez cites no authority showing joint-employer
status is a standalone claim for relief. The Court therefore does
not construe Olivarez’s allegations as to joint-employer status as a
standalone claim for relief.
3. Olivarez and Defendants rely, in part, on extrinsic evidence
(the “Extrinsic Evidence”). Rule 12(b)(6) generally precludes
consideration of materials beyond the pleadings. Fed. R. Civ. P.
12(d). The Court may, however, consider materials beyond the
pleadings by giving notice and converting a motion to dismiss into a
motion for summary judgment. Id. Because Rule 12(b)(6) precludes
consideration of the Extrinsic Evidence, and because the Court
declines to convert the motions to dismiss into motions for summary
judgment, the Court does not consider the Extrinsic Evidence.

17a
Appendix B
In deciding a Rule 12(b)(6) motion to dismiss for failure
to state a claim, the Court “accepts all well-pleaded facts
as true, viewing them in the light most favorable to the
plaintiff.” In re Katrina Canal Breeches Litig., 495 F.3d
191, 205 (5th Cir. 2007) (quoting Martin K. Eby Constr.
Co. v. Dall. Area Rapid Transit, 369 F.3d 464, 467 (5th
Cir. 2004)). The plaintiff must plead “enough facts to state
a claim to relief that is plausible on its face.” Twombly,
550 U.S. at 570. If “the allegations in a complaint, however
true, could not raise a claim of entitlement to relief,
this basic deficiency should ... be exposed at the point of
minimum expenditure of time and money by the parties
and the court.” Cuvillier v. Taylor, 503 F.3d 397, 401 (5th
Cir. 2007) (quoting Twombly, 550 U.S. at 558).
III. LAW & ANALYSIS
Defendants move to dismiss the FMLA Claims,
the Title VII Claims, and the ADA Claim. The Court
addresses Defendants’ contentions as to the FMLA
Claims, the Title VII Claims, and the ADA Claim in turn.
A. 	The FMLA Claims
Defendants contend the FMLA Claims—specifically,
for interference, discrimination, and retaliation—fail
because Olivarez does not sufficiently allege he was
entitled to FMLA leave. A prima facie case of interference
under the FMLA requires a plaintiff to allege, inter alia,
he was an “eligible employee” entitled to leave under the
FMLA. Caldwell v. KHOU-TV, 850 F.3d 237, 245 (5th Cir.
2017). Under the FMLA, an eligible employee entitled

18a
Appendix B
to leave is an employee who worked for the employer
for at least 1,250 hours during the preceding twelvemonth period. 29 U.S.C. § 2611(2)(A). Further, a prima
facie case of “discrimination or retaliation” under the
FMLA requires the plaintiff to allege, inter alia, he was
“protected under the FMLA.” Bocalbos v. Natl W. Life
Ins. Co., 162 F.3d 379, 383 (5th Cir. 1998). The plaintiff is
not protected under the FMLA if he was not an eligible
employee entitled to FMLA leave at the time leave was
requested or at the time requested leave would have been
taken. Amsel v. Tex. Water Dev. Bd., 464 F. App’x 395, 401
n.7 (5th Cir. 2012) (per curiam).
On December 21, 2015, Olivarez alleges he commenced
working for Defendants “as a full-time retail store
associate.”4 From September 2016 to November 2016,
Olivarez alleges his “hours were reduced to part-time[.]”5
On October 10, 2017, Olivarez alleges he requested leave
“from 9/23/17 until 12/31/17.”6 On December 21, 2017,
Olivarez alleges he requested to “be out another six
weeks.” 7 On March 20, 2018, Olivarez alleges he requested
“additional leave.”8
Olivarez does not allege facts showing he worked
at least 1,250 hours during the twelve-month period
4. Live Complaint, supra note 2, ¶ 6.
5. Live Complaint, supra note 2, ¶ 9.
6. Live Complaint, supra note 2, ¶ 10.
7. Live Complaint, supra note 2, ¶ 14.
8. Live Complaint, supra note 2, ¶ 15.

19a
Appendix B
preceding the alleged initial request for leave commencing
September 23, 2017. Further, Olivarez does not allege
facts showing he worked at least 1,250 hours during the
twelve-month period preceding the alleged requests for
leave on December 21, 2017, and March 20, 2018. While
Olivarez allegedly initially worked “full-time,” 9 Olivarez
alleges his hours were reduced to “part-time.”10 Olivarez
does not allege he returned to working on a full-time basis.
Olivarez fails to sufficiently allege he was an eligible
employee entitled to FMLA leave and further fails to
sufficiently allege he was protected under the FMLA.
The FMLA Claims therefore fail as a matter of law.
Accordingly, the motions to dismiss are granted as to the
FMLA Claims.11
B. 	The Title VII Claims
Defendants contend the Title VII Claims should be
dismissed. The Court addresses Defendants’ contentions
as to each of the Title VII Claims— specif ically,
discrimination and retaliation—in turn.
9. Live Complaint, supra note 2, ¶ 6.
10. Live Complaint, supra note 2, ¶ 9.
11. T-Mobile further contends the FMLA Claims should be
dismissed because Olivarez fails to distinguish between Defendants
and further contends the claim for retaliation under the FMLA
should be dismissed because Olivarez fails to allege protected
activity or a causal connection between protected activity and an
adverse action. In light of the Court’s holding, the Court need not
address these contentions.

20a
Appendix B
1. 	Discrimination
Defendants contend the claim for discrimination under
Title VII fails because Olivarez does not sufficiently allege
he was treated differently than other employees. A prima
facie case of discrimination under Title VII requires a
plaintiff to allege, inter alia, he was treated less favorably
than similarly-situated employees outside his protected
group. Alkhawaldeh v. Dow Chem. Co., 851 F.3d 422, 426
(5th Cir. 2017). “Employees are similarly situated if: (1)
they ‘held the same job or responsibilities’; (2) they worked
for ‘the same supervisor or had their employment status
determined by the same person’; (3) they had ‘essentially
comparable violation histories’; and ‘critically’ (4) the
employees’ conduct drawing adverse consequences was
‘nearly identical’ but resulted in ‘dissimilar employment
decisions.’” Warren v. Fed. Nat’l Mortg. Ass’n, 733 F.
App’x 753, 761 (5th Cir. 2018) (per curiam) (quoting Lee v.
Kan. City. S. Ry. Co., 574 F.3d 253, 259-60 (5th Cir. 2009)).
Under Rule 12(b)(6), the plaintiff must plead sufficient
facts as to the ultimate elements of the prima facie case.
Chhim v. Univ, of Tex. at Austin, 836 F.3d 467, 470 (5th
Cir. 2016).
Olivarez does not plead facts alleging other employees
held the same job or responsibilities, worked for the
same supervisor, had comparable violation histories, or
engaged in nearly identical conduct resulting in dissimilar
employment decisions. Olivarez does not allege he was
treated less favorably than a similarly-situated employee
outside his protected group. Olivarez therefore fails to
sufficiently allege a prima facie case of discrimination

21a
Appendix B
under Title VII. Accordingly, the motions to dismiss are
granted as to the claim for discrimination under Title
VII.12
2. 	Retaliation
Defendants contend the claim for retaliation under
Title VII is untimely. Under Title VII, a plaintiff must
file an administrative charge within, at most, 300 days
after the alleged unlawful employment practice occurs.
42 U.S.C. § 2000e-5(e)(1); EEOC v. WC & M Enters., Inc.,
496 F.3d 393, 398 (5th Cir. 2007). A timely administrative
charge is a prerequisite to judicial relief. E.g., Tucker
v. United Parcel Serv., Inc., 734 F. App’x 937, 940 (5th
Cir. 2018) (per curiam). Olivarez alleges he filed an
administrative charge in June 2018.13 Olivarez alleges
he experienced retaliation “in 2016[.]”14 The June 2018
administrative charge’s 300-day period does not extend
to alleged retaliation in 2016. Aside from allegations
of 2016 retaliation, Olivarez does not identify other or
12. T-Mobile further contends the claim for discrimination
under Title VII should be dismissed because Olivarez fails to: (1)
distinguish between Defendants; (2) allege he belongs to a protected
group; (3) allege timely acts of discrimination; and (4) sufficiently
respond to the motions to dismiss. Broadspire further contends the
claim for discrimination under Title VII should be dismissed because
Olivarez fails to: (1) allege he belongs to a protected group; (2) allege
timely acts of discrimination; (3) allege an adverse action; and (4)
sufficiently respond to the motions to dismiss. In light of the Court’s
holding, the Court need not address these contentions.
13. Live Complaint, supra note 2, ¶ 17.
14. Live Complaint, supra note 2, ¶ 24.

22a
Appendix B
more recent acts of alleged retaliation under Title VII.15
Taking Olivarez’s allegations as true—as Rule 12(b)(6)
requires—the claim for retaliation under Title VII is
untimely. Accordingly, the motions to dismiss are granted
as to the claim for retaliation under Title VII.16
C. 	The ADA Claim
Defendants contend the ADA Claim fails because
Olivarez does not sufficiently allege a disability. A prima
facie case of discrimination under the ADA requires a
plaintiff to allege, inter alia, a disability. Neely v. PSEG
Tex., Ltd. P’ship, 735 F.3d 242, 245 (5th Cir. 2013). Under
the ADA, “disability” means: (1) “a physical or mental
impairment that substantially limits one or more of the
major life activities”; (2) “a record of such an impairment”;
or (3) “regarded as having such an impairment[.]” 42
U.S.C. § 12102(1); see also 29 C.F.R. § 1630.2(h) (defining
“[p]hysical or mental impairment”).

15. Although Olivarez alleges the termination of his employment
is “evidence of retaliation” under the FMLA, he does not make that
allegation under Title VII. See Live Complaint, supra note 2, ¶ 29; see
also Live Complaint, supra note 2, ¶ 33. Nor does Olivarez contend
tolling or the continuing-violation doctrine apply.
16. T-Mobile further contends the claim for retaliation under
Title VII should be dismissed because Olivarez fails to distinguish
between Defendants or identify any specific act of alleged retaliation.
Broadspire further contends the claim for retaliation under Title VII
should be dismissed because a 180-day limitation applies. In light of
the Court’s holding, the Court need not address these contentions.

23a
Appendix B
Olivarez alleges he required leave “for egg preservation
and a hysterectomy”17 (the “Procedures”). Olivarez does
not allege a physical or mental impairment related
to, or caused the need for, the Procedures. Olivarez
alleges “mental health problems . . . ensued due to th[e
P]rocedures[.]”18 Olivarez does not, however, plead any
further allegations as to alleged mental health problems
associated with the Procedures. Olivarez does not allege
facts showing he had a physical or mental impairment
substantially limiting a major life activity, a record of such
an impairment, or he was regarded as having such an
impairment. Olivarez fails to sufficiently allege a disability
under the ADA. The ADA Claim thus fails as a matter of
law. Accordingly, the motions to dismiss are granted as
to the ADA Claim.19

17. Live Complaint, supra note 2, ¶ 10.
18. Live Complaint, supra note 2, ¶ 27.
19. T-Mobile further contends the ADA Claim should be
dismissed because Olivarez fails to: (1) distinguish between
Defendants; (2) allege T-Mobile knew of any disability or delayed or
denied leave; (3) allege a causal connection between a disability and an
adverse action; and (4) sufficiently respond to the motions to dismiss.
Broadspire further contends the ADA Claim should be dismissed
because Olivarez fails to: (1) allege timely acts of discrimination; (2)
allege an adverse action; (3) allege a causal connection between a
disability and an adverse action; and (4) sufficiently respond to the
motions to dismiss. In light of the Court’s holding, the Court need
not address these contentions.

24a
Appendix B
IV. CONCLUSION
Accordingly, the Court hereby
ORDERS that Defendant T-Mobile USA Inc.’s 12(b)
(6) Motion to Dismiss the Second Amended Complaint
(Document No. 30) is GRANTED. The Court further
ORDERS that the Motion of Defendant Broadspire
Services Inc. to Dismiss the Second Amended Complaint
(Document No. 31) is GRANTED.
The Court will issue a separate final judgment.
SIGNED at Houston, Texas, on this 9 day of June,
2020.
/s/ David Hittner		
DAVID HITTNER
United States District Judge

